Memorandum from the Office of the Inspector General



April 16, 2010

William R. McCollum, Jr., LP 6A-C

FINAL REPORT – AUDIT 2009-12291-02 – REVIEW OF POSTPONED AND
CANCELLED CAPITAL PROJECTS – POWER SYSTEM OPERATIONS



Attached is the final report on our review of Power System Operations' postponed and
cancelled capital projects. This report is for information purposes only; therefore, no
response is necessary.

Recipients of this report are responsible for safeguarding it to prevent publication or other
improper disclosure. Because information contained in this report may be subject to
public disclosure once the report is finalized, please advise us of any sensitive information
in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Amy R. Rush,
Senior Auditor, at (865) 633-7361 or Lisa H. Hammer, Director, Financial and Operational
Audits, at (865) 633-7342. We appreciate the courtesy and cooperation received from
your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

ARR:JP
Attachment
cc (Attachment):
      Peyton T. Hairston, Jr., WT 7B-K                Emily J. Reynolds, OCP 1L-NST
      Robin B. Hayes, MR 3B-C                         Scott D. Self, MR 6D-C
      Tom D. Kilgore, WT 7B-K                         Joyce L. Shaffer, WT 9B-K
      Helen S. Layne, MR 3B-C                         Michael B. Shirey, MR 3F-C
      Robin E. Manning, MR 3H-C                       John M. Thomas III, MR 3S 120
      Richard W. Moore, ET 4C-K                       OIG File No. 2009-12291-02
        
 


                                      Audit Report
 
Office
      of the Inspector General                                      

                                 To the Chief Operating Officer
                                  
                                                                    

                                                                    

 

 

 

 

 


REVIEW OF POSTPONED
 

 

AND CANCELLED CAPITAL
PROJECTS –POWER
SYSTEM OPERATIONS
 




 

 
 
 

 
Audit Team                                     Audit 2009-12291-02
Amy R. Rush                                           April 16, 2010
Holly B. Oswalt
Jamie M. Wykle 
Office of the Inspector General                                                                Audit Report


SYNOPSIS
As part of our annual audit plan, we reviewed the process for postponing and
cancelling capital projects. Our audit objectives were to determine whether fiscal
years (FY) 2007 and 2008 project postponements and cancellations were
(1) properly approved, (2) effectively communicated, and (3) monitored to
prevent inappropriate charges.

Our review specifically focused on the processes for Nuclear Power Group,
Power System Operations (PSO), Fossil Power Group, and River Operations.
Due to the unique aspects of each of these organizations, we will issue a
separate report on each organization. This report addresses the process for the
PSO organization.

Based on our review, we determined that PSO's postponed and cancelled
projects (1) contained a capital classification designated by Fixed Asset
Accounting (FAA), (2) were approved in accordance with Standard Programs and
Processes (SPP) 2.1, and (3) had valid justifications for postponement and/or
cancellation. We also noted that project changes were communicated internally
using a listing of projects known as the "checkbook," rather than Five-Year
Project Plans. We determined the use of the checkbook was a reasonable
alternative to the Five-Year Project Plan.

We also determined that project cancellations required to be communicated to
FAA were communicated to FAA in a timely manner. Finally, we noted that while
there is no policy governing the splitting of project costs, there is an independent
review of project costs performed by Financial Services personnel and an
expectation for employees to appropriately charge their time to the specific
project(s) they work on.


BACKGROUND
Each year, the Tennessee Valley Authority (TVA) initiates a wide variety of
capital and operations and maintenance (O&M) projects. In that regard, TVA's
project justification process is designed to ensure that such projects are aligned
with TVA's vision, goals, and strategic plan objectives. As defined by TVA's
SPP-2.1: Project Justification Process,1 the process consists of identifying
project initiatives, coordinating and completing project reviews, receiving funding,
approving projects, and executing projects which include project postponement,
cancellation, and closure. Projects are initiated, owned, managed, and executed
by the respective Strategic Business Unit (SBU).




1
    During the review, SPP-2.1 was being revised to update the project authorization matrix. We used the
    latest approved revision for this testing.
Audit 2009-12291-02                                                                                  Page 1
Office of the Inspector General                                                                   Audit Report


According to TVA's Capitalization policy, projects are classified as capital if they
result in the creation of new assets, the replacement of existing assets, or the
removal of existing assets. Projects are considered O&M if they repair, restore,
test, inspect, or assess existing assets. In addition, any capital project that is
cancelled should be reclassified as an O&M project and project costs expensed.
FAA personnel are responsible for determining the proper accounting
classification for all projects under consideration for capitalization.

Capital projects greater than $250,000 are required to be entered as stand-alone
projects in the Project Justification System (PJS), which serves as the official
database containing project data and project approval status.2 Depending on the
cost and type of the project, there can be multiple levels of project approval.
Projects less than or equal to $250,000 are grouped together and entered into
the PJS as a "bucket." Projects are classified as one of three categories:

     Strategic – Projects initiated or sanctioned by the Board or management with
      costs greater than $8 million.
     Base – Projects specific to an SBU to maintain its mission with costs less
      than or equal to $8 million.
     Discretionary – Projects classified as Economic/Revenue, Capacity Growth,
      and Reimbursable.

Occasionally, projects may require a revision to change the project scope or
priority and may need to be suspended, accelerated, or deferred.3 When such a
change occurs, the respective SBU must ensure the project change process is
followed and adequately documented. Specifically, the SBU is required to
(1) initiate a revised Project Justification (PJ) form with an explanation for the
change and identification of the impacts on the project cost, schedule, scope,
and/or benefits, (2) coordinate appropriate reviews for revisions to projects, and
(3) update the Five-Year Project Plan.4

Depending on the project cost, projects are required to have various levels of
approval. Specifically, each SBU is required to have an SBU Officer level of
approval for capital projects. An SBU Executive is required to approve all capital
strategic projects and base and discretionary capital projects greater than
$2 million. In addition, Chief Executive Officer (CEO) and Chief Financial Officer
(CFO) approvals are required for capital projects exceeding $8 million. The CEO
determines whether Board approval is required for projects greater than
$50 million. Upon approval, an SBU representative is required to inform the CFO


2
    According to Chief Financial Officer (CFO) personnel, PJS is a stand-alone application and is not linked to
    TVA's general ledger application.
3
    According to CFO personnel, project postponements or deferrals include projects where the in-service
    date (ISD) has been extended past the original planned ISD. During the period of postponement, costs
    may still be incurred, and work may still be performed on the project.
4
    The Five-Year Project Plan is a "living" document comprising the current list of projects maintained as the
    SBU's funded and prioritized projects currently being implemented or planning to be implemented.
Audit 2009-12291-02                                                                                     Page 2
Office of the Inspector General                                                 Audit Report


PJS system administrator of approvals, and the system administrator marks PJS
as "Project Management Council (PMC) Approved."

Once projects are approved, a project manager is responsible for ensuring the
project is completed to implement the approved scope at the lowest possible cost
within the approved budget and on schedule. A Project Control Specialist (PCS)
is responsible for initiating changes affecting project funding and/or scheduling,
working with the project managers to monitor project costs. In addition, PSO has
a Change Control Board (CCB) consisting of the Vice President or designee, a
Financial Services representative, project managers, and associated personnel
needed to provide explanations of project changes. The charter of the CCB is to
review projects to ensure that they are needed and comply with their approved
scope, funding, and schedule and to recommend changes in plans when
required to meet goals, commitments, and budgets.

We determined there were a total of 589 postponed capital projects and
87 cancelled capital projects in FYs 2007 and 2008. Of those totals, PSO had
233 postponed and 4 cancelled projects. As of FY 2008, projects deemed as
postponed had a total requested budget and total expenditures of approximately
$1 billion and $107 million, respectively. PSO-cancelled projects had no
expenditures as of FY 2008.

                                          Postponed Projects   Cancelled Projects
             Fossil Power Group                  232                  79
            Nuclear Power Group                  80                    3
          Power Supply Operations                233                   4
               River Operations                  32                    1
                      Other                      12                    0
                                  Total          589                  87
                                                                             Table 1



OBJECTIVES, SCOPE, AND METHODOLOGY
As part of our annual audit plan, we reviewed the process for postponing and
cancelling capital projects. Our audit objectives were to determine whether
FYs 2007 and 2008 project postponements and cancellations were (1) properly
approved, (2) effectively communicated, and (3) monitored to prevent
inappropriate charges.

Our review specifically focused on the processes for Nuclear Power Group, PSO,
Fossil Power Group, and River Operations. Due to the unique aspects of each of
these organizations, we will issue a separate report on each organization. This
report addresses the process for the PSO organization. To achieve our
objective, we:

Audit 2009-12291-02                                                                    Page 3
Office of the Inspector General                                                                      Audit Report


     Reviewed relevant policies and procedures governing the approval,
      communication, and monitoring of PSO capital projects, including SPP-2.1:
      Project Justification Process and ESP-07.001: Change Control Board.
     Interviewed PSO Project Management including PCS personnel, the Project
      Finance Specialist responsible for the PJS, PSO Controller personnel, and
      FAA personnel.
     Identified 233 postponed5 and 4 cancelled PSO projects in FYs 2007 and
      2008.
     Selected a statistical sample6 of 22 postponed projects and a judgmental
      sample of 1 postponed project and 4 cancelled projects.
     Obtained and reviewed project documentation including PJ forms, Capital
      Reporting Summaries, impact memos, Change Control Notices, and year-to-
      date cost information.
     Observed work management and CCB meetings.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Although we did not test
for compliance with laws and regulations, nothing came to our attention during
the audit that indicated noncompliance with laws and regulations.


FINDINGS
We determined the sampled PSO's postponed and cancelled projects
(1) contained a capital classification designated by FAA, (2) were approved in
accordance with SPP-2.1, and (3) had valid justifications for postponement
and/or cancellation.

Our testing also disclosed that all project cancellations required to be
communicated to FAA were communicated to FAA in a timely manner. We also
noted that checkbooks were used to communicate project changes within PSO
rather than five-year business plans. We determined the use of the checkbook
was a reasonable alternative to the Five-Year Project Plan.

Finally, we noted that while there is no policy governing the splitting of project
costs, there is an independent review of project costs performed by Financial
Services personnel and an expectation for employees to appropriately charge
their time to the specific project(s) they may be working on.

5
    Postponed projects are defined as projects having an in-service date deferred to a later date.
6
    For projects selected in the samples, we reviewed all revisions within scope for the project.
Audit 2009-12291-02                                                                                       Page 4
Office of the Inspector General                                                                 Audit Report


APPROVAL OF PROJECTS
According to TVA's SPP-2.1, each SBU is required to obtain approval as defined
in the Project Authorization Matrix for funded projects and project revisions
meeting certain criteria. Such project approval is required to be documented on
the PJ form. We selected a sample of 23 postponed and 4 cancelled projects
and reviewed the PJS documentation for each project. We verified that all
projects were approved in accordance with SPP-2.1 and contained a capital
classification designated by FAA.7

However, we noted that (1) 15 of the postponed projects contained an approval
by the SBU which occurred after the PMC date and (2) 4 cancelled projects had
not been marked as PMC approved. According to project management, projects
that had a PMC approval occurring prior to the SBU approval were due to timing
issues. According to a PSO Specialist, the cancelled projects were not required
to be sent to PMC because no spending occurred in the fiscal year in which they
were cancelled. However, SPP-2.1 states an SBU representative is required to
inform the CFO PJS system administrator of approvals so the system
administrator can mark the project as "PMC Approved" in PJS. After further
discussions with PSO project management personnel, we determined the
signature approvals as documented during the CCB meetings are considered the
official approvals rather than those in the PJS.

COMMUNICATION OF PROJECT STATUS
To facilitate project tracking, project status must be communicated by PSO
project management to FAA, PSO Financial Services, and internal project
personnel. Specifically, projects having a cancelled status should be
communicated to FAA and PSO Financial Services to ensure accuracy and
timeliness of financial reporting. Cancelled projects as well as projects having a
postponed status are required to be communicated within the organization to
better facilitate project management. According to FAA process documentation
and the Controller's Web site, communication of project status to FAA includes
the submission of Form 4013, Capital Projects Completion/Cancellation Notice,
for projects that are cancelled. Project cancellation status must also be
submitted to PSO Financial Services since that organization is currently
responsible for writing off project costs. Communication of project status within
the organization occurs through impact memos and/or change control notices
(CCN) as well as a "checkbook" which serves as PSO's Five-Year Project Plan.
SPP-2.1 requires that project status be updated on the Five-Year Project Plan.




7
    We did not test the accuracy of FAA's classification during this review. We relied on procedures
    performed in the Office of the Inspector General Audit 2009-12429; where no exceptions were identified in
    our testing of FAA financial reporting controls related to the capital classification of projects.
Audit 2009-12291-02                                                                                   Page 5
Office of the Inspector General                                                                 Audit Report


Communication to FAA and Business Services
For the four sampled cancelled projects, we determined that communication to
FAA from PSO Financial Services for one cancelled project was timely and that
such communication was not required for the other three. According to PSO
Financial Services personnel, PSO project management is not required to
communicate the cancellation of projects with no associated costs. We verified
there were no project costs associated with these three projects.

Communication Within PSO
We obtained impact memos and/or CCNs for the 23 postponed and 4 cancelled
projects and verified the sampled projects were included on the impact memo or
CCN, without exception. We requested Five-Year Project Plans which
corresponded to the sampled projects; however, PSO was not able to provide the
information. According to PSO personnel, rather than using the Five-Year Plan
to communicate projects, a listing of projects called a checkbook is updated with
project revisions on a weekly basis, and this information is communicated within
the PSO organization as well as to the Chief Operating Officer. We determined
the checkbook was a reasonable alternative to the Five-Year Project Plan and
verified that all sampled projects were updated and included on the checkbook,
without exception.

Based on discussions with project personnel and the review of project
documentation, we determined that each of the sampled projects had been
postponed or cancelled for valid reasons. Reasons for postponing or cancelling
projects included customer delays or cancellations and the identification of
additional work to be performed.

MONITORING OF PROJECTS

According to TVA's Capitalization policy, FAA is responsible for determining the
proper accounting classification for all projects under consideration for
capitalization. According to FAA personnel, the project classification allows the
SBU to charge appropriate costs related to the project as either capital or O&M,
depending on the project classification. Specifically, if a project is designated as
"capital," by FAA, it is the responsibility of the project manager to ensure only
capital-type costs8 are charged to that project. Similarly, only noncapital costs
should be charged to O&M. Any capital project that is cancelled should be
reclassified as an O&M project and project costs expensed. Project managers
along with project control specialists examine project costs for discrepancies or
budget variances. PSO Financial Services personnel, who are independent of
project management, attend CCB meetings, review and provide explanations for
cost variances, and assist with analyzing details of questionable charges.

We reviewed a selection of costs for the sampled postponed projects and
determined there were no charges made to the project which could be potential

8
    Capital costs are costs incurred on the purchase of land, buildings, construction, and equipment needed
    to bring a project to a commercially operable status.
Audit 2009-12291-02                                                                                   Page 6
Office of the Inspector General                                           Audit Report


O&M expenses. In addition, we determined that project costs were written off in
a timely manner for one of the four sampled cancelled projects. The remaining
three projects had no project costs. During the review of project costs, we
identified 12 PSO projects in which travel costs were split among projects.
According to PSO Financial Services personnel, there is no policy governing the
splitting of project costs; however, there is the expectation for employees to
appropriately charge their time to the specific project(s) they may be working on,
and if that included more than one project, it would be appropriate to split costs.
In addition, there is an independent review of project costs performed by
Financial Services personnel.




Audit 2009-12291-02                                                            Page 7
